                                               NATlONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFlCE OF 1NVESTlGATlONS

                                          CLOSEOUT MEMORANDUM

Case Number: A08110055                                                                   Page 1 of 1




                NSF OIG received an allegation regarding an NSF proposal' appearing to request funding
        for a project already conducted, presented and published.3 We contacted the subject,' who
        detailed differences between the proposed NSF project and the completed project. Our re-
        examination of the NSF proposal and the completed project indicated the projects differed in the
        manner the Subject described, and the proposed project also included various additional
        experiments unique to the proposed project. We therefore determined that there was no evidence
        to substantiate the allegation. Accordingly, this case is closed.




                                                                                                           L


NSF 01G Form 2 (11/02)
